Supreme Court of Jflori&a
TUESDAY, JANUARY 5, 2021
CASE NO.: SC20-1600
Lower Tribunal No(s).:
642020CA030011XXXXCI
BERTRAM MANN

Petitioner(s)

vs.

VOLUSIA COUNTY SHERIFF’S
DEPARTMENT
Respondent(s)

The petition for writ of mandamus is hereby denied as successive. See
Jenkins v. Wainwright, 322 So. 2d 477, 478 (Fla. 1975) (declaring that once a
petitioner seeks relief in a particular court by means of a petition for extraordinary
writ, he has picked his forum and is not entitled to a second or third opportunity for
the same relief by the same writ in a different court). No motion for rehearing will
be entertained by this Court.
POLSTON, LABARGA, LAWSON, MUNIZ, and GROSSHANS, JJ., concur.
A True Copy
Test:

4-22
Join A. Tomasino
Clerk, Supreme Court
ks
Served:
BERTRAM MANN
MICHAEL J. CHITWOOD, SHERIFF
HON. LAURA E. ROTH, CLERK

/^/

IN THE CIRCUIT COURT, SEVENTH JUDICIAL
CIRCUIT, IN AND FOR VOLUSIA COUNTY,
FLORIDA
CASE NO.: 2020-30011 CICI1
BERTRAM S. MANN,
Petitioner, .
v.
VOLUSIA COUNTY SHERRIFF’S DEPARTMENT,
Respondent.

ORDER DISMISSING PETITIONER’S MOTION FOR REHEARING
THIS MATTER is before the Court upon Petitioner’s pro se pleadings, which this Court
has construed as motions for rehearing filed on April 20,2020; May 29,2020; June 12,2020; and
June 15,2020. The Court having considered the pleadings and the court file, and being otherwise
fully advised in the premises finds as follows:
The Court previously dismissed Petitioners initial motion for rehearing as untimely
pursuant to Surratt v. Freeman, 924 So. 2d 905, 906 (Fla. 1st DCA 2006). The aforesaid order
was returned to the Court on or about May 15, 2020. See Appendix A. Notwithstanding, the
pleading is still untimely. The remaining pleadings would also be untimely pursuant to both Florida
Rule of Appellate Procedure 9.330 and Florida Rule of Civil Procedure 1.530. See Surratt, 924
So. 2d at 906. Therefore, Petitioner’s motions for rehearing are DIMISSED.
RULING
Accordingly, it is hereby ORDERED AND ADJUDGED that the motions for rehearing
are DISMISSED as untimely.
_^(DONE AND ORDERED in Chambers, in Volusia Coi
, Daytona Beach, Florida, this
day of
2020.
/

DENNIS CRAIG
CIRCUIT COURT JUDGE
cc:

Bertram S. Mann, Petitioner, D.C. # 585588, Blackwater Correctional Facility, 5914 Jeff
Ates Road, Milton, Florida 32583-0000
The Volusia County Sheriff’s Office

1 The caption is entitled BERTRAM S. MANN v. SHERIFF’S DEPT ET AL, however in the interest of clarity the
Court will refer to the pleading as BETRAM S. MANN v. VOLUSIA COUNTY SHERIFF’S OFFICE.

7/

fJL ^ /JS
' '

IN THE CIRCUIT COURT, SEVENTH JUDICIAL
CIRCUIT, IN A3® FOR VOLUSIA COUNTY,
FLORIDA
CASE NO.: 2020-30011 CICI
BERTRAM S. MANN,
Petitioner,
v.
S.«

VOLUSIA COUNTY SHERRIFF’S DEPARTMENT,
Respondent.

!\5

Si I
SgS:

~n

od

3

IT,

ORDER DENYING PETITIONER’S PETITION FOR WHIT OF IjpNDAMUS }
THIS MATTER is before the Court upon Petitioner’s pro se g§fition-j|or writ of
mandamus filed on January 6,2020. The Court having considered the petition and the court file,
and being otherwise fully advised in the premises finds as follows:
Petitioner moves this Court to compel the Volusia Comity Sheriffs Office to complete
internal investigations related to complaints or grievances he has filed with the office.
Specifically, based upon the attachments to the instant petition, Petitioner moves this Court to
•compel the Sherriffs. Office to'conduct investigations concerning alleged issues stemming from
the arrest affidavit, search warrant, and trial testimony of two deputies in case number 1991001276 CFAES. Events related to the allegations of misconduct occurred between 1991 and
1994. The Volusia County SherrifPs Office declined to”conduct internal investigations in 2014.
For the following reasons, the petition lacks merit.
First, Petitioner has failed to plead a prima facie case for mandamus. “To state a cause of
• action for mandamus, a party must allege a clear legal right to performance of the act requested,
an indisputable legal duty, and the lack of an adequate remedy at law.” Seigler v. Bell, 148 So.
3d 473, 480 (Fla. 5th DCA 2014) (quoting Radford v. Brock, 914 So. 2d 1066, 1067 (Fla. 2d
DCA 2005)). The Court finds that the Sheriff’s Office completed its ministerial duty to
determine if an investigation into the allegations was warranted, any further action would be
discretionary. Therefore, Petitioner’s petition for writ of mandamus is DENIED.

i .

4.--'*

Second, based upon the attachments to the petition, Petitioner is attempting to collaterally
attack his judgment and sentence, which is not cognizable in a petition for writ of mandamus.
Petitioner should have challenged these allegations during his criminal case at the trial stage. See
Haynes v. State, 73 So. 3d 793,795 (Fla. 5th DCA 2011) (citing Wright v. State, 857 So. 2d 861,
874 (Fla. 2003)). Therefore, Petitioner’s petition for -writ of mandamus is DENIED.
Third, as stated above, the events related to the allegations of misconduct occurred
between 1991 and 1994. Any claim concerning the events of alleged misconduct would be
barred by the equitable doctrine of laches. Alternatively, based upon the attachments, the Volusia
County Sheriffs Office declined to conduct investigations in 2014. Defendant filed the instant
petition nearly six year later in 2020; accordingly, the petition is barred by the equitable doctrine
of laches in that respect. Therefore, Petitioner’s petition for writ ofmandamus is DENIED.
RULING
Accordingly, it is hereby ORDERED AND ADJUDGED that the petition for writ of
mandamus is DENIED WITH PREJUDICE.
Petitioner has thirty (30) days from the rendition of this order to file a notice of appeal.
DONE AND ORDERED in Chambers, in Volusia County, Daytona Beach, Florida, this,
day of f^ ft~r~ is W
*___2020.

(

DENNIS CRAIG
CIRCUIT-COURT JUDGE

:
!

cc:

iV

Bertram S. Mann, Petitioner, D.C. # 585588, Blackwater Correctional Facility, 5814iJeff
Ates Road, Milton, Florida 32583-0000
1
The Volusia County Sheriff’s Office

2

Additional material
from this filing is
available in the
Clerk's Office.

